September 30, 2008

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – City Letter Carrier Operations Office Time Processes
         (Report Number DR-AR-08-013)

This report presents the results of our nationwide audit of City Letter Carrier Operations
Office Time Processes (Project Number 07XG041DR000). The report responds to a
request from the Vice President, Delivery, to review the management of the Pre-Office
and Morning (AM) Office city letter carrier operations time processes.1 The objective
was to determine whether U.S. Postal Service officials were effectively managing the
Pre-Office and AM office badge control and clock processes to reduce operating costs.
Click here to go to Appendix A for additional information about this audit.

Conclusion

Some city letter carriers clocked in before their scheduled tour of duty resulting in
significant unauthorized overtime workhours. Without more effective supervisory
controls, the Postal Service may lose an opportunity to reduce city letter carrier
workhours.

Management of Pre-Office and Morning Office Processes

Some city letter carriers were clocking in before their tour of duty which resulted in
unauthorized overtime projected at 177,540 workhours nationwide. This occurred
because supervisors and managers did not always follow established procedures.

As a result, for city delivery operations, we estimated the Postal Service incurred
unrecoverable questioned costs2 in fiscal year (FY) 2007 of $6,128,681. Likewise, we
estimate Postal Service city delivery operations will incur unauthorized overtime
workhours totaling 12,862,773 for early clock in, classified as funds put to better use,3


1
  This review is a value proposition agreement between the Vice President, Delivery, and the Delivery Directorate of
the U.S. Postal Service Office of Inspector General (OIG).
2
  Unrecoverable questioned costs - Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation
of law or regulation.
3
  Funds put to better use - Funds that could be used more efficiently by implementing recommended actions.
City Letter Carrier Operations                                        DR-AR-08-013
 Office Time Processes


by the end FY 2009. Click here to go to Appendix B for our detailed analysis of this
topic.

We recommend the Vice President, Controller:

1. Assess the feasibility of automating the badge control processes with the Electronic
   Badge Reader and Time and Attendance Collection System to prevent employees
   from clocking in before their official begin times.

Management’s Comments

The Vice President, Controller, agreed with the finding and recommendation. Although
management conducted an assessment and found that the recommendation was not
feasible due to the technical limitations of the current Electronic Badge Reader (EBR)
hardware, they provided two other viable options to satisfactorily address the
recommendation. Further, management established additional reporting capability in
the enterprise data warehouse in the Time and Attendance Reporting (TAR) project.
This reporting capability provides two management tools: Tour Deviation and
Unauthorized Overtime Reports. Finally, management stated they will create additional
training materials on using TAR reports and reemphasize the importance of badge
control with front-line supervisor and managers. Both of these initiatives will be
completed by the end of October 2008. Management’s comments, in their entirety, are
included in Appendix F.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendation and management’s corrective actions should resolve the issues
identified in the report.

We recommend the Vice Presidents, Area Operations, direct district managers to:

2. Enforce supervisory oversight of the badge control and clock ring processes in all of
   their delivery units to control office hours.

3. Require delivery supervisors to adjust the scheduled begin times in the Delivery
   Operations Information System (DOIS) and the Time and Attendance Collection
   System (TACS) when carriers are directed to report earlier than their scheduled
   begin time.

4. Require delivery supervisors to record authorized overtime in the Delivery
   Operations Information System and the Time and Attendance Collection System in a
   timely manner to reduce the amount of unauthorized overtime recorded on the Time
   and Attendance Collection System, Unauthorized Overtime report.




                                            2
City Letter Carrier Operations                                        DR-AR-08-013
 Office Time Processes


Management’s Comments

All nine areas of operations agreed with the finding and recommendation 2. These
areas have subsequently issued or reissued Standard Operating Procedures (SOP) to
reemphasize to the supervisors and managers the importance of supervisory oversight
of the badge control and clock ring processes.

In response to recommendation 3, management in seven of the nine area offices
incorporated instructions for adjusting scheduled begin times in DOIS and TACS in their
issued or reissued SOPs or held conferences to train all supervisors on this issue.
However, Northeast Area management disagreed with the finding and recommendation
3. They stated requiring these adjustments in both DOIS and TACS are redundant and
not necessary, but agreed to reinforce adherence to the current timekeeping policy.
Finally, the Western Area agreed, in part, with the finding and recommendation. They
stated that since TACS maintains the base schedule for the employee, the schedule
should only be modified when the employee requests a schedule change for his/her
convenience. Management stated that differences between TACS and the employee
schedule are monitored through the Tour Deviation report which was newly
implemented as discussed above.

For recommendation 4, eight areas agreed with the finding and recommendation.
Management in these areas issued or reissued SOPs to reemphasize to supervisors
and managers the need for recording authorized overtime in DOIS and TACS in a timely
manner. However, the Northeast Area disagreed with the finding and the
recommendation, stating that requiring these adjustments in both DOIS and TACS is
redundant and not necessary, but they will support an upgrade to DOIS that includes a
direct feed from TACS to DOIS to record overtime authorization. In addition, they will
reinforce adherence to the current time and attendance policy regarding overtime
authorization which will satisfy the intent of the recommendation.

The Capital Metro, Great Lakes and Western Areas agreed with the potential monetary
impact. The Eastern, New York Metro, Southeast and Southwest Areas stated they
could not commit to the actual dollar amounts specified in the audit report. However, in
subsequent discussions, these areas agreed in principle with the potential monetary
impact and capturing savings through improved efficiencies as they implement the
related recommendation. Finally, management in the Northeast and Pacific Areas
neither agreed nor disagreed with the monetary impact, stating they would like an
opportunity to review the data used to calculate the estimated monetary savings
amounts.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
However, we do not consider the Northeast and Pacific Areas’ comments to be




                                            3
City Letter Carrier Operations                                      DR-AR-08-013
 Office Time Processes


responsive to the monetary impact. During the audit, we discussed the scope and
methodology used to calculate the monetary impact nationwide and made management
aware of the dollar amounts applicable at the area level. The methodology used was
sound and reasonable in extracting and comparing data on the Tour Deviation and
Unauthorized Overtime Reports from TACS to project unauthorized overtime hours
attributed to early clock rings nationwide and at the area level. We will work with
management to validate the monetary impact after issuance of the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed. We will report $18,991,454 of funds put to better use
in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, Director,
Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
  for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    James W. Kiser
    Katherine S. Banks




                                          4
City Letter Carrier Operations                                                                            DR-AR-08-013
 Office Time Processes


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

To establish standard practices for managing all delivery functions, the Vice President,
Delivery, issued a letter on September 30, 2005, stating that all delivery units will
officially implement the SOP beginning in FY 2006. The Vice President disseminated
the SOP as a requirement to assist delivery unit managers and supervisors in achieving
the goal of using data from DOIS to make business decisions that affect matching
workload with available resources, ensuring consistent time of day delivery (TODD),
and making route adjustments. The SOP identifies key duties and responsibilities
assigned to managers and supervisors for different periods of the workday: Pre-Office;
AM4 Office; Street Management; and Afternoon (PM) Office.

The Pre-Office and AM Office periods are important in the delivery supervisor’s
preparation for the day’s workload. These two periods include badge control and clock
ring management, which provide an opportunity for the supervisor to eliminate early
clocking in before scheduled duty times and idle (non-productive) time in the carriers’
workday. Click here to go to Appendix D for additional information.

Badge control procedures require the managers and supervisors to control employees’
access to time cards and badges through the locking and unlocking of the badge rack to
make certain the employees clock in and out according to their assigned schedules.
Early clocking in – prior to the scheduled begin time5 – by a city letter carrier can result
in idle carrier time and additional workhours not supported by the workload.

DOIS provides the tools necessary to manage workhours to workload, while TACS
provides additional tools to effectively manage the scheduled workhours and the
complement necessary to perform the workload.6 Since a supervisor’s decisions are
often based on carrier availability and performance, timely timekeeping data is essential
to running an efficient delivery unit. The creation of an automated interface7 between
DOIS and TACS allows managers and supervisors to avoid the creation of timekeeping
extracts and the manual loading of this information into DOIS.

For FY 2008, the Postal Service budgeted over 454 million workhours for Function 2B
(City Delivery), which is 33.11 percent of the total 1.3 billion budgeted workhours. The
Postal Service also included over 53 million overtime workhours in the FY 2008 budget,

4
  Pre-Office processes include delivery supervisor duties performed prior to carriers’ reporting time. AM Office
includes delivery supervisor duties performed from carriers’ reporting time until the carriers leave the office for street
delivery.
5
  The additional workhours affect the Percent to Standard and possibly the Percentage of Overtime.
6
  TACS standardizes data collection and time and attendance nationally and provides improved security through a
larger number of authorization levels for data access. Badge controls are built in to identify employees having
multiple EBR badges, provide for instant deactivation of lost or terminated badges, and enable prior authorizations for
future actions (e.g., higher-level work authorizations).
7
  Supervisors will only have to make clock ring corrections once for both operational and financial errors, and these
corrections are reflected in DOIS reports within 15 minutes. This allows the supervisor to have accurate reports to
discuss the previous day’s performance with employees.


                                                            5
City Letter Carrier Operations                                                                              DR-AR-08-013
 Office Time Processes


which represents a national overtime percentage of 11.82 percent as illustrated below in
Table 1.

                                 Table 1 – FY 2008 City Delivery Budgeted Workhours and
                                                      Overtime Hours

                                                    FY 2008                  FY 2008          Percentage of
                                                   Budgeted                 Budgeted            Budgeted
                                   Area           Workhours                 Overtime            Overtime
                           New York Metro           47,684,127                5,300,493               11.12
                           Northeast                36,859,209                4,581,444               12.43
                           Eastern                  53,884,747                7,135,878               13.24
                           Southeast                47,775,918                4,983,175               10.43
                           Western                  67,397,654                6,785,518               10.07
                           Capital Metro            32,159,043                4,314,081               13.41
                           Pacific                  67,714,918                8,696,314               12.84
                           Great Lakes              57,847,997                7,128,853               12.32
                           Southwest                43,673,405                4,849,402               11.10
                           National Total          454,997,018               53,775,158               11.82
                          Source: Postal Service FY 2008 Budget

The FY 2008 field budget identified an opportunity to reduce the budgeted workhours
for Function 2B by over 4.7 million workhours at a savings of over $177 million.
According to the Postal Service, this reduction can be achieved with more effective
control of office and street workhours and increased delivery point sequence volume.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective was to determine whether Postal Service officials were effectively
managing the Pre-Office and AM Office time processes to reduce operating costs. To
accomplish our objective, we interviewed appropriate delivery managers in the nine
area offices and the district offices and postal facilities within the Capital Metro Area8 to
obtain information on the policies and procedures for matching workhours to workload,
clocking in procedures, and badge control. We reviewed documentation and applicable
policies and procedures regarding badge control and clock ring management. We
visited postal facilities within the Capital Metro Area during the survey phase to conduct
observations and interview managers and supervisors to obtain information on delivery
operations workhour to workload management process, clocking in procedures, and
badge control procedures.

We randomly selected 3489 district weeks10 from a universe of 4,160 possible district
weeks in FY 2007. For each of the randomly selected district weeks, we extracted tour

8
  During the audit survey, we conducted site visits at three district offices and four delivery units within the Capital
Metro Area. During the audit fieldwork phase, we interviewed area delivery managers and obtained appropriate
documentation for the other eight area offices.
9
  We used 299 random weeks in the audit plus 49 weeks of data from our survey in the Capital Metro Area. This
provided a universe of 348 random weeks out of 4,160 possible weeks.
10
   A district week is the number of weeks in a year times the number of possible districts in a Postal Service area.
For example: nationwide there are 80 districts, times 52 weeks, equals a universe of 4,160 district weeks.


                                                             6
City Letter Carrier Operations                                                                           DR-AR-08-013
 Office Time Processes


deviation data and unauthorized overtime data from TACS. The data for the randomly
selected 348 district weeks allowed analysis of all nine areas.11 We performed
calculations using the FY 2007 data to project potential cost savings through FY 2009.
Click here to go to Appendix C for the calculation of unrecoverable questioned costs
and funds put to better use.

We conducted this performance audit from September 2007 through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 22, 2008, and
included their comments where appropriate. We relied on data obtained from Postal
Service database systems. We did not directly audit the systems, but performed a
limited data integrity review to support our data reliance.

PRIOR AUDIT COVERAGE

The OIG has issued two reports related to our objective.

                                                   Report                  Final Report                Monetary
           Report Title                            Number                      Date                     Impact
Delivery and Retail Standard                    DR-MA-07-003             February 22, 2007               None
Operating Procedures – National
Capping Report
City Letter Carrier Operations –                DR-AR-06-004             March 31, 2006               $7,061,060
National Capping Report

The 2007 report summarized a series of nine area reports identifying opportunities to
improve implementation of the Postal Service’s Delivery and Retail SOP. We did not
make recommendations in this report that required management’s comments.

The 2006 report summarized opportunities to improve the management of city letter
carrier operations in the Pacific and Great Lakes Areas. We did not make
recommendations in this report that required management’s comments.




11
   Capital Metro Area data was obtained in a similar fashion during the audit survey. Seven random weeks were
selected for each of the seven districts and the data obtained for a total of 49 district weeks. The Capital Metro Area
data was included in the final audit calculations.


                                                           7
City Letter Carrier Operations                                                                           DR-AR-08-013
 Office Time Processes




             APPENDIX B: IMPROVEMENTS NEEDED IN THE MANAGEMENT
                OF PRE-OFFICE AND MORNING OFFICE PROCESSES

We found some city letter carriers were clocking in before their tour of duty which
resulted in unauthorized overtime projected at 177,540 workhours nationwide.12 (See
Table 2.)

                         Table 2: Projection of Unauthorized Overtime Attributed
                                            to Early Clocking
                                                             FY 2007 Unauthorized
                                                             Overtime Workhours
                                                              Attributed to Early
                                Area          Districts           Clocking In
                         Capital Metro                  7                    21,602
                         Eastern                       10                     5,702
                         Great Lakes                    9                    22,185
                         New York Metro                 7                     8,676
                         Northeast                      8                    14,529
                         Pacific                        8                    39,977
                         Southeast                      9                    14,516
                         Southwest                      8                    41,078
                         Western                       14                     9,275
                         National Total                80                  177,540
                        Source: OIG analysis of Tour Deviation and Unauthorized
                                 Overtime Reports

According to Handbook F-21, Time and Attendance Manual, supervisors are
responsible for controlling employee access to time cards and badges; making certain
the employees clock in and out according to their assigned schedules; and approving all
daily clock rings. In addition, Handbook M-39, Management of Delivery Services,
requires delivery managers to determine if carriers’ reporting, leaving, returning, and
ending times are consistent with established schedules.

The unauthorized overtime occurred because supervisors and managers:

    •    Left badge racks unlocked instead of keeping the racks locked until 5 minutes
         prior to carriers’ arrival.

    •    Did not observe carriers as they clocked in during the AM Office period.

    •    Were busy with other administrative duties such as entering data into DOIS when
         the carriers began arriving and clocking in.


12
   According to area officials, early clocking in and the resulting cost for unauthorized overtime are problem areas for
not only city delivery operations (Function 2B), but also for mail processing operations (Function 1) and retail
operations (Function 4).


                                                            8
City Letter Carrier Operations                                                                         DR-AR-08-013
 Office Time Processes


     •   Did not adjust carriers schedule begin times in DOIS and TACS.

     •   Did not always correct unauthorized overtime data in DOIS and TACS to reflect
         approved authorized overtime.

Discussions with area officials revealed that clocking in before the scheduled tour time
is a problem. However, they indicated they continue to:

     •   Monitor and address this issue through the use of area policies and procedures
         distributed to the district offices and delivery units. For instance, the Southeast13
         and Capital Metro Areas14 have issued specific directives to monitor overtime
         and early clock rings.

     •   Use various reports from DOIS and TACS including tour deviation, unauthorized
         overtime, clock ring error, and others to track the problem. For example,
         Western, Southwest, and Eastern Area officials have designed, and disseminate
         on a daily or weekly basis, a specialized report that provides tour deviations
         which result in unauthorized early begin times. These specialized reports track
         not only the city delivery operations (Function 2B), but also mail processing
         (Function 1) and retail (Function 4) early begin times. Collectively these three
         functions represent an even larger opportunity to reduce costs for the Postal
         Service.

In addition, according to several area officials, automating the clocking in process would
take the burden off the delivery supervisors and prevent clock rings by employees which
are outside their assignment15 or area of assignment.16 We agree that an automated
system would prevent an employee from clocking in if the employee’s scheduled begin
time did not match the actual time the employee attempts to clock in. Supervisors most
likely would have the ability to override the system in cases where the early clocking in
is deemed necessary, either by making a change to the employee’s schedule prior to
the workday, or at the EBR at the time the employee is to clock in. This removes the
supervisor as the control point for unauthorized clock rings.

As a result of the unauthorized clock rings, we estimated the Postal Service incurred
city delivery unrecoverable questioned costs in FY 2007 of $6,128,681, and will incur
another $12,862,773 in city delivery unauthorized overtime workhours by the end of FY
2009, which we will report as funds put to better use.


13
   On May 11, 2007, Southeast Area officials issued a policy memorandum to the district managers to manage non-
scheduled day overtime and early clock rings.
14
   On January 7, 2008, Capital Metro Area officials issued a policy memorandum on the subject of “Creeping
Overtime.” This memorandum directed managers and supervisors to review their operations to ensure that
employees are maintaining their assigned schedules.
15
   A duty assignment is a set of duties and responsibilities within recognized positions regularly scheduled during
specific hours of duty.
16
   Functional assignment area is a designated work location(s), or a part of a designated work location(s), within a
center, or within a service center, branch, section, or group within a center.


                                                          9
City Letter Carrier Operations                                                              DR-AR-08-013
 Office Time Processes


                APPENDIX C: OIG CALCULATION OF UNRECOVERABLE
                QUESTIONED COSTS AND FUNDS PUT TO BETTER USE

The OIG identified $6,128,681 in unrecoverable questioned costs nationwide for FY
2007 for unauthorized overtime workhours attributed to early clock rings. We estimated
$12,862,773 in funds put to better use for the nation for FYs 2008 and 2009 for
unauthorized overtime workhours attributed to early clock rings.

When taken on a nationwide basis, this audit showed a total of 254,694 unauthorized
overtime workhours for FY 2007. Using this number, we estimated an impact of over
$27 million by the end FY 2009. However, due to the Postal Service’s organizational
structure requiring each area to manage its own field budget, we used statistical
methods which allowed us to estimate the monetary impact for each individual area.
The sum of the monetary impact for each individual area resulted in a lower amount of
$18,991,454, which we used as the monetary impact indicated below.

                                 Table 3. Monetary Impact by Area

                          Estimated
                           FY 2007
                        Unauthorized                          Funds Put     Funds Put
                       Overtime Hours       Questioned         to Better     to Better       Total
                        Attributable to    Unrecoverable        Use FY        Use FY       Monetary
         Area          Early Clocking In   Cost FY 2007          2008          2009         Impact
   Capital Metro                21,602         $745,701       $765,143       $799,922     $2,310,766
   Eastern                       5,702           196,833        201,965       211,145          609,943
   Great Lakes                  22,185           765,826        785,793       821,511       2,373,129
   New York
   Metro                         8,676           299,496        307,304       321,272          928,072
   Northeast                    14,529           501,541        514,617       538,009       1,554,167
   Pacific                      39,977         1,380,006      1,415,985     1,480,348       4,276,340
   Southeast                    14,516           501,092        514,157       537,527       1,552,777
   Southwest                    41,078         1,418,013      1,454,983     1,521,118       4,394,114
   Western                       9,275           320,173        328,521       343,453          992,147
   National Total              177,540        $6,128,681 $6,288,467 $6,574,306 $18,991,454
  Source: OIG calculations performed on the results of the Precision Analysis of Post Stratified Appraisal
           for All Areas

Notes:
   • We based the estimated FY 2007 overtime workhours on analysis using TACS
      data, ACL software, and RAT-STATS software.

    •   We calculated the unrecoverable questioned costs using the estimated
        workhours multiplied by the city letter carrier level 2 annual rate for FY 2007.

    •   We calculated the funds put to better use for FY 2008 using the city letter carrier
        level 2 annual rate for FY 2008.


                                                   10
City Letter Carrier Operations                                                 DR-AR-08-013
 Office Time Processes



    •   We calculated the funds put to better use for FY 2009 by using the city letter
        carrier level 2 annual rate for FY 2009.

    •   The escalation factor from FYs 2007 to 2008 is 60 cents.

    •   The escalation factor from FYs 2008 to 2009 is $1.07 based on the Postal
        Service’s National Average Labor Rates Table, FY 2007 Actual and FYs 2008
        and 2009 Projections.




                                             11
City Letter Carrier Operations                                                   DR-AR-08-013
 Office Time Processes



                      APPENDIX D: FLOW CHART OF BADGE CONTROL
                            AND CLOCK RING MANAGEMENT

                        Start                                Supervisor unlocks the
                                                              badge rack 5 minutes
                                                            prior to carrier scheduled
                                                                  begin time and
                                                             observes/monitors the
                                                               clock in procedure.
                     Supervisor
                     reports for
                        duty




             Supervisor prepares                                    Does the
           station for carrier arrival                             supervisor
           by placing time badges                               monitor the carrier
            in rack and locking the                                  clock in
                     rack.                                        procedure?




                                                                                             Weakness
                                                                                           This provides
                                                                                No               an
                                                                                            opportunity
                Is the badge rack                                                          for carriers to
                 locked after the                                                          clock in early.
                                                                       Yes
               badges are placed
               in the badge rack?

                                           Weakness          Supervisor secures the
                                         This provides       badges after the carrier
                                         an opportunity      clocks in and continues
                                   No                         with AM office duties.
               Yes                       for carriers to
                                         clock in early.



             Does the badge rack
             remain locked until 5
               minutes prior to
              carriers' scheduled
                  begin time?                                           End

                                           Weakness
                                         This provides
                                 No      an opportunity
                                         for carriers to
                                         clock in early.

                      Yes




                                                       12
City Letter Carrier Operations                               DR-AR-08-013
 Office Time Processes



                         APPENDIX F: MANAGEMENT’S COMMENTS




                                        13
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 14
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 15
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 16
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 17
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 18
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 19
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 20
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 21
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 22
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 23
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 24
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 25
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 26
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 27
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 28
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 29
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 30
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 31
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 32
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 33
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 34
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 35
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 36
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 37
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 38
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 39
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 40
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 41
City Letter Carrier Operations        DR-AR-08-013
 Office Time Processes




                                 42
